     DEPARTMENT OF HEALTH AND HUMAN SERVICES                              Office of Inspector General


                                                                          Office of Audit Services, Region V
                                                                          233 North Michigan Avenue
                                                                          Suite 1360
                                                                          Chicago, IL 60601

October 24, 2011

Report Number: A-05-11-00012

Delos Cosgrove, M.D.
Chief Executive Officer and President
Cleveland Clinic Main Campus
Mail Code H18
9500 Euclid Avenue
Cleveland, OH 44195

Dear Dr. Cosgrove:

Enclosed is the U.S. Department of Health and Human Services (HHS), Office of Inspector
General (OIG), final report entitled Review of Cleveland Clinic’s Claims for Procedures That
Included the Replacement of Medical Devices During 2008 and 2009. We will forward a copy
of this report to the HHS action official noted on the following page for review and any action
deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
contact Stephen Slamar, Audit Manager, at (312) 353-7905 or through email at
Stephen.Slamar@oig.hhs.gov. Please refer to report number A-05-11-00012 in all
correspondence.

                                             Sincerely,



                                             /Sheri L. Fulcher/
                                             Regional Inspector General
                                               for Audit Services

Enclosure
Page 2 – Delos Cosgrove, M.D.



HHS Action Official:

Nanette Foster Reilly
Consortium Administrator
Consortium for Financial Management & Fee for Service Operations
Centers for Medicare & Medicaid Services
601 East 12th Street, Room 235
Kansas City, Missouri 64106
Department of Health and Human Services
            OFFICE OF
       INSPECTOR GENERAL




 REVIEW OF CLEVELAND CLINIC’S
 CLAIMS FOR PROCEDURES THAT
  INCLUDED THE REPLACEMENT
  OF MEDICAL DEVICES DURING
        2008 AND 2009




                       Daniel R. Levinson
                        Inspector General

                         October 2011
                         A-05-11-00012
                    Office of Inspector General
                                    http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance of HHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments of HHS programs
and operations. These assessments help reduce waste, abuse, and mismanagement and promote
economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
These evaluations focus on preventing fraud, waste, or abuse and promoting economy, efficiency,
and effectiveness of departmental programs. To promote impact, OEI reports also present
practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
fraud and misconduct related to HHS programs, operations, and beneficiaries. With investigators
working in all 50 States and the District of Columbia, OI utilizes its resources by actively
coordinating with the Department of Justice and other Federal, State, and local law enforcement
authorities. The investigative efforts of OI often lead to criminal convictions, administrative
sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
for OIG’s internal operations. OCIG represents OIG in all civil and administrative fraud and
abuse cases involving HHS programs, including False Claims Act, program exclusion, and civil
monetary penalty cases. In connection with these cases, OCIG also negotiates and monitors
corporate integrity agreements. OCIG renders advisory opinions, issues compliance program
guidance, publishes fraud alerts, and provides other guidance to the health care industry
concerning the anti-kickback statute and other OIG enforcement authorities.
                        Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov



 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

The Centers for Medicare & Medicaid Services (CMS), which administers the Medicare
program, pays for hospital inpatient and outpatient services under distinct prospective
payment systems.

Medical Device Replacement

Common medical devices implanted during outpatient procedures include pacemakers,
cardioverter defibrillators, and their associated leads. Occasionally, devices need to be replaced.
Providers may receive full or partial credit from manufacturers for devices that are covered under
warranty or replaced because of recalls. To offset these credits, Medicare reduces the payment
for the replacement of a device if (1) the device is replaced without cost to the provider, (2) the
provider receives full credit for the cost of the replaced device, or (3) the provider receives
partial credit equal to or greater than 50 percent of the cost of the replacement device.

For outpatient services furnished on or after January 1, 2007, CMS established reporting
requirements for a provider that incurs no cost or that receives full credit for a replaced device.
In such circumstances, CMS requires the provider to report the modifier “FB” and to report
reduced charges on a claim that includes a procedure code for the insertion of a replacement
device. For services furnished on or after January 1, 2008, CMS also requires the provider to
report the modifier “FC” on a claim that includes a procedure code for the insertion of a
replacement device if the provider receives a credit from the manufacturer of 50 percent or more
of the cost of the replacement device. Similarly, for inpatient discharges on or after October 1,
2008, CMS established reporting requirements for a provider that incurs no cost, receives full
credit, or receives a credit for a replaced device that is 50 percent or greater than the cost of the
device. In such circumstances, CMS requires the provider to report the value code “FD” and to
bill the amount of the credit in the amount portion for that value code. CMS further requires the
provider to report appropriate condition codes to indicate a medical device replacement.

Cleveland Clinic

The Cleveland Clinic (the Clinic) is a 1,300-bed acute-care hospital located in Cleveland, Ohio.
National Government Services (NGS) processes and pays the Clinic’s Medicare claims. NGS
paid the Clinic a total of $11.2 million for 1,261 outpatient procedures that included the
replacement of medical devices for the two-year period ending December 31, 2009, and $10
million for 407 claims for inpatient claims covering the one year period ending September 30,
2009.

OBJECTIVE

Our objective was to determine whether the Clinic complied with Medicare requirements for
obtaining credits available from manufacturers for replaced medical devices and for reporting the
appropriate billing codes and charges to reflect the credits received.

                                                  i
SUMMARY OF FINDINGS

The Clinic did not fully comply with Medicare requirements for obtaining credits available from
manufacturers and for reporting the appropriate billing codes and charges to reflect the credits it
received. For 1,247 outpatient claims and 397 inpatient claims for the audit periods, there were
no available credits or the credits were partial credits received from manufacturers that did not
represent at least 50 percent of the cost of the devices and therefore were not reportable. For the
24 remaining claims, credits were available from manufacturers and reportable. However,
regarding the credits:

   •   For five outpatient and one inpatient claims, the Clinic did not obtain credits that were
       available under the terms of the manufacturers’ warranties.

   •   For six outpatient and nine inpatient claims, the Clinic obtained full credit but did not
       report the “FB” modifier and reduced charges (outpatient) or the “FD” value code and
       appropriate condition code (inpatient) on the claims to alert NGS that payment
       adjustments were needed.

   •   For three outpatient claims, the Clinic obtained partial credit but did not report the “FC”
       modifier and reduced charges.

The Clinic was overpaid $253,593 for the 24 claims ($184,568 outpatient and $69,025 inpatient).
Moreover, for these claims, beneficiaries incurred $5,615 in additional copayment costs. The
overpayments and additional copayment costs occurred because the Clinic did not have controls
to report the appropriate billing codes and charges to reflect credits due from manufacturers.

RECOMMENDATIONS

We recommend that the Clinic:

   •   adjust the 24 erroneous claims and resubmit them to NGS to correct the overpayments
       totaling $253,593 and overstated copayment costs totaling $5,615,

   •   strengthen its procedures for identifying and obtaining the credits available from
       manufacturers, and

   •   establish procedures in accordance with Medicare requirements for reporting to NGS the
       credits for replaced devices that the Clinic is entitled to, regardless of whether it received
       the credits.

CLEVELAND CLINIC COMMENTS

In its comments on our draft report, the Clinic disagreed with the amount of eleven
overpayments in our first recommendation. The Clinic stated that the credit for three claims was
not reportable, because the amount of credit received from the manufacturer was less than 50
percent. For one claim, it was only entitled to a partial credit but the OIG calculated a full credit.

                                                  ii
The Clinic believes that CMS’ methodology for calculating the outlier payments for four claims
should allow underpayments to be netted against the credit. It also noted that three claims
involved the insertion of two devices, but because Medicare policy allows only one credit, the
Clinic was actually underpaid on the claims.

The Clinic agreed with our second and third recommendations and has implemented new
procedures for processing credits from device manufacturers.

OFFICE OF INSPECTOR GENERAL RESPONSE

After reviewing the Clinic’s comments, we adjusted the findings in our report by removing three
claims where the Clinic received less than a 50 percent credit and by reducing the credit amount
on one claim.

The Clinic’s opinions regarding revising CMS’ methodology for calculating outlier payments
relating to four claims and Medicare’s policy of allowing only one credit when two devices are
inserted relating to three claims, is beyond the scope of our review. We calculated the Medicare
overpayment on these seven claims in accordance with current Medicare policies and
procedures.
.




                                               iii
                                                  TABLE OF CONTENTS

                                                                                                                            Page

INTRODUCTION..............................................................................................................1

          BACKGROUND .....................................................................................................1
              Hospital Prospective Payment Systems .......................................................1
              Credits for Replaced Medical Devices ........................................................2
              Reimbursement for Medical Device Replacement ......................................2
              Cleveland Clinic ..........................................................................................3

          OBJECTIVE, SCOPE, AND METHODOLOGY ...................................................3
               Objective ......................................................................................................3
               Scope ............................................................................................................3
               Methodology ................................................................................................4

FINDINGS AND RECOMMENDATIONS ....................................................................5

          MEDICARE REQUIREMENTS .............................................................................5
               Prudent Buyer Principle ...............................................................................5
               Coding Requirements for Medical Device Credits ......................................6

          NONCOMPLIANCE WITH MEDICARE REQUIREMENTS ..............................7
              Clinic Did Not Obtain Available Credits .....................................................7
              Clinic Did Not Report Credits It Received .................................................7

          MEDICARE OVERPAYMENTS ...........................................................................8

          RECOMMENDATIONS .........................................................................................8

          CLEVELAND CLINIC COMMENTS....................................................................8

          OFFICE OF INSPECTOR GENERAL RESPONSE ..............................................9

APPENDIXES

          A – CORRESPONDING AMBULATORY PAYMENT CLASSIFICATIONS
               AND DIAGNOSIS RELATED GROUPS

          B – CLEVELAND CLINIC COMMENTS




                                                                    iv
                                             INTRODUCTION

BACKGROUND

The Medicare program, established by Title XVIII of the Social Security Act (the Act), provides
health insurance coverage to people aged 65 and over, people with disabilities, and people with
end-stage renal disease. The Centers for Medicare & Medicaid Services (CMS) administers the
Medicare program. Part A of Title XVIII provides inpatient hospital insurance while Part B of
Title XVIII provides supplementary medical insurance for medical and other health services,
including coverage of hospital outpatient services.

CMS contracts with Medicare contractors to, among other things, process and pay claims
submitted by hospitals. 1

Hospital Prospective Payment Systems

Outpatient Prospective Payment System

As mandated by the Balanced Budget Act of 1997, P.L. No. 105-33, together with the Medicare,
Medicaid, and SCHIP Balanced Budget Refinement Act of 1999, P.L. No. 106-113, CMS
implemented an outpatient prospective payment system (OPPS) for hospital outpatient services.
The OPPS was effective for services furnished on or after August 1, 2000. Under the OPPS,
Medicare pays for hospital outpatient services on a rate-per-service basis that varies according to
the ambulatory payment classification (APC) group to which the service is assigned. CMS uses
Healthcare Common Procedure Coding System codes and descriptors to identify and group the
services within each APC group. All services and items within an APC group are comparable
clinically and require comparable resources.

Inpatient Prospective Payment System

The Social Security Act Amendments of 1983, Public Law 98-21, enacted on April 20, 1983,
established a prospective payment system for Medicare reimbursement to hospitals. Section
1886(d) of the Act set forth a system of payments for the costs of acute care hospital inpatient
stays based on prospectively set rates effective for services furnished on or after October 1, 1983.
Under the inpatient prospective payment system (IPPS), each case is categorized into a
diagnosis-related group (DRG). Each DRG has a payment weight assigned to it based on the
average resources used to treat Medicare patients in that DRG.

Under both the OPPS and the IPPS, outlier payments are available when exceptionally costly
services exceed established thresholds.

1
  Section 911 of the Medicare Prescription Drug, Improvement, and Modernization Act of 2003, P.L. No. 108-173,
requires CMS to transfer the functions of fiscal intermediaries to Medicare administrative contractors (MAC)
between October 2005 and October 2011. Most, but not all, of the MACs are fully operational. For jurisdictions
where the MACs are not fully operational, fiscal intermediaries continue to process Part B outpatient claims. For
purposes of this report, the term “Medicare contractor” means the fiscal intermediary or MAC, whichever is
applicable.


                                                        1
Credits for Replaced Medical Devices

Common medical devices implanted during inpatient and outpatient procedures include
pacemakers, cardioverter defibrillators, and their associated leads. Occasionally, devices need to
be replaced. Providers may receive full or partial credit from manufacturers for devices that are
covered under warranty or replaced because of recalls. Warranties vary among manufacturers
and product lines but commonly cover replaced devices on a pro rata basis depending on the age
of the device. Providers generally must send replaced devices back to the manufacturers within a
specified time after the replacement procedures to obtain credits.

Reimbursement for Medical Device Replacement

To offset the credits that a provider receives for costly devices replaced during inpatient and
outpatient procedures, Medicare generally requires payment adjustments. Specifically, for 43
inpatient DRGs and 31 types of devices that fall within 21 outpatient APCs, Medicare reduces
the payment for the replacement of the device if the provider is entitled to full or partial credits
from the manufacturer.

Outpatient Reimbursement

For outpatient services furnished on or after January 1, 2007, CMS established reporting
requirements for a provider that incurs no cost or that receives full credit for a replaced device.
In such circumstances, CMS requires the provider to report the modifier “FB” and to report
reduced charges on a claim that includes a procedure code for the insertion of a replacement
device. 2 For outpatient services furnished on or after January 1, 2008, CMS also requires the
provider to report the modifier “FC” on a claim that includes a procedure code for the insertion
of a replacement device if the provider receives a credit from the manufacturer of 50 percent or
more of the cost of the replacement device. Providers must use these modifiers as required to
ensure that Medicare makes the appropriate payment adjustments.

In the preamble to the regulation implementing the billing requirements for device replacement
credits (71 Fed. Reg. 68072 (Nov. 24, 2006)), CMS stated that payment adjustments were
consistent with section 1862(a)(2) of the Act, which excludes from Medicare coverage an item or
service that neither the beneficiary nor anyone on his or her behalf has an obligation to pay.
According to CMS, payment of the full APC payment rate when a device was replaced under
warranty or when there was a full credit for the price of the replaced device effectively results in
Medicare payment for a noncovered item.




2
 The provider’s failure to report reduced charges on a claim with the “FB” modifier could result in excessive or
unwarranted outlier payments.



                                                         2
Inpatient Reimbursement

For inpatient discharges on or after October 1, 2008, CMS established reporting requirements for
a provider that incurs no cost, receives full credit, or receives a credit for a replaced device that is
50 percent or greater than the cost of the device. In such circumstances, CMS requires the
provider to report the value code “FD” on its claim and to bill the amount of the credit in the
amount portion for that value code. CMS further requires the provider to report condition codes
49 or 50 to indicate a medical device replacement. 3

Cleveland Clinic

The Cleveland Clinic (the Clinic) is a 1,300-bed acute-care hospital located in Cleveland, Ohio.
As the Medicare contractor for hospitals in Ohio, National Government Services (NGS)
processes and pays the Clinic’s claims for Medicare services. 4

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the Clinic complied with Medicare requirements for
obtaining credits available from manufacturers for replaced medical devices and for reporting the
appropriate billing codes and charges to reflect the credits received.

Scope

Our audit covered $21.2 million in Medicare payments to the Clinic for procedures involving the
possible replacement of medical devices. Our audit population consisted of 1,668 claims: 1,261
outpatient claims, totaling $11.2 million, with dates of service during the two-year period ending
December 31, 2009; and 407 inpatient claims, totaling $10 million, with dates of services during
the one year period ending September 30, 2009. 5 We limited our audit to claims that involved
the replacement of pacemakers, cardioverter defibrillators, and their associated leads. 6

The listings of the corresponding seven outpatient APCs and 14 inpatient DRGs applied in this
audit are included in Appendix A. During the audit periods, the Clinic did not submit any


3
  Effective April 1, 2006, CMS required the use of two new condition codes to track devices provided without cost
to providers. Condition code 49 refers to the replacement of a device which is not functioning properly and
condition code 50 refers to devices subject to recalls. Medicare payment edits require the presence of both value
and condition codes for inpatient claims involving a medical device replacement. Medicare Claims Processing
Manual, Pub. 100-04, CR 4058, Transmittal 741.
4
    NGS became a MAC in March 2008.
5
 Requirements for use of the FD code for inpatient medical device credits did not commence until October 1, 2008.
Medicare Claims Processing Manual, Pub. 100-04, CR 5860, Transmittal 1509.
6
 Our prior audits of replaced medical device credits disclosed that these types of devices presented the greatest risk
of non-compliance with Medicare requirements.


                                                          3
outpatient claims with “FB” or “FC” modifiers, and it did not submit any inpatient claims with
the “FD” value code or the appropriate condition code. 7

We limited our internal control review to the Clinic’s controls related to (1) preparing and
submitting Medicare claims for procedures that included the replacement of medical devices and
(2) identifying and obtaining credits and reporting that manufacturers provided credits for
medical devices that were either covered under warranty or recalled.

We conducted our fieldwork at the Clinic in Cleveland, Ohio from December 2010 through
January 2011.

Methodology

To accomplish our objective, we:

    •    reviewed applicable Federal laws, regulations, and guidance;

    •    extracted from CMS’s National Claims History file the Clinic’s outpatient paid claim
         data for the two-year period ending December 31, 2009, and inpatient paid claim data for
         the 1 year period ending September 30, 2009;

    •    developed computer queries to identify (1) 1,261 outpatient claims that included
         procedures for the replacement of any of the seven specified types of APCs and 14
         medical devices and (2) 407 inpatient claims that included the 14 specific DRGs;

    •    selected judgmental samples of 22 outpatient claims and 23 inpatient claims and
         reviewed the beneficiaries’ medical records and manufacturers’ warranties to determine
         whether the Clinic should have submitted the claims with the applicable billing codes and
         reduced charges;

    •    reviewed the Clinic’s procedures for identifying and obtaining credits and reporting on its
         Medicare claims that the manufacturers provided credits for replaced devices;

    •    relied on Region I auditors to interview officials from selected device manufacturers that
         conducted business with the Hospital to identify their requirements for issuing credits and
         obtained lists of credits issued to the Hospital to determine whether Medicare payment
         adjustments were needed;

    •    reviewed six outpatient and seven inpatient claims that the Clinic, through its self-
         initiated claims review, identified as having received a credit;

    •    reviewed adjusted claims that the Clinic resubmitted to NGS;


7
  During our audit, the Clinic self-initiated a review to determine those claims that needed to be adjusted and
resubmitted to NGS to reflect reportable credits received from manufacturers.


                                                           4
   •   calculated the correct payments for those claims for which payment adjustments
       were needed; and

   •   discussed the results of our review with Clinic officials.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objective. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                          FINDINGS AND RECOMMENDATIONS

The Clinic did not fully comply with Medicare requirements for obtaining credits available from
manufacturers and for reporting the appropriate billing codes and charges to reflect the credits it
received. For 1,247 outpatient claims and 397 inpatient claims for the audit periods, there were
no available credits or the credits were partial credits received from manufacturers that did not
represent at least 50 percent of the cost of the devices and therefore were not reportable. For the
24 remaining claims, credits were available from manufacturers and reportable. However,
regarding the credits:

   •   For five outpatient and one inpatient claims, the Clinic did not obtain credits that were
       available under the terms of the manufacturers’ warranties.

   •   For six outpatient and nine inpatient claims, the Clinic obtained full credit but did not
       report the “FB” modifier and reduced charges (outpatient) or the “FD” value code and
       appropriate condition code (inpatient) on the claims to alert NGS that payment
       adjustments were needed.

   •   For three outpatient claims, the Clinic obtained partial credit but did not report the “FC”
       modifier and reduced charges.

Medicare overpaid the Clinic $253,593 for the 24 claims ($184,568 outpatient and $69,025
inpatient). Moreover, for these claims, beneficiaries incurred $5,615 in additional copayment
costs. The overpayments and additional copayment costs occurred because the Clinic did not
have controls to report the appropriate billing codes and charges to reflect credits due from
manufacturers.

MEDICARE REQUIREMENTS

Prudent Buyer Principle
Under 42 CFR § 413.9, “All payments to providers of services must be based on the
reasonable cost of services ….” CMS’s Provider Reimbursement Manual, part 1, section
2102.1, states:




                                                 5
       Implicit in the intention that actual costs be paid to the extent they are reasonable
       is the expectation that the provider seeks to minimize its costs and that its actual
       costs do not exceed what a prudent and cost conscious buyer pays for a given item
       or service. If costs are determined to exceed the level that such buyers incur, in
       the absence of clear evidence that the higher costs were unavoidable, the excess
       costs are not reimbursable under the program.

Section 2103 of the Provider Reimbursement Manual states that Medicare providers are expected
to pursue free replacements or reduced charges under warranties. Section 2103(C)(4) provides
the following example:

       Provider B purchases cardiac pacemakers or their components for use in replacing
       malfunctioning or obsolete equipment, without asking the supplier/manufacturer
       for full or partial credits available under the terms of the warranty covering the
       replaced equipment. The credits or payments that could have been obtained must
       be reflected as a reduction of the cost of the equipment.

Coding Requirements for Medical Device Credits


Outpatient Coding Requirements

Federal regulations (42 CFR § 419.45) require reductions in the OPPS payments for the
replacement of an implanted device if (1) the device is replaced without cost to the provider or
the beneficiary, (2) the provider receives full credit for the cost of the replaced device, or (3) the
provider receives partial credit equal to or greater than 50 percent of the cost of the replacement
device.

CMS guidance in Transmittal 1103, dated November 3, 2006, and in its Medicare Claims
Processing Manual (the Manual) explains how a provider should report no-cost and reduced-cost
devices under the OPPS. For services furnished on or after January 1, 2007, CMS requires the
provider to report the modifier “FB” and reduced charges on a claim that includes a procedure
code for the insertion of a replacement device if the provider incurs no cost or receives full credit
for the replaced device. If the provider receives a replacement device without cost from the
manufacturer, the provider must report a charge of no more than $1 for the device (chapter 4,
section 61.3.1 of the Manual). If the provider receives full credit from the manufacturer for a
replaced device that is less expensive than the replacement device, the provider must report a
charge that represents the difference between its usual charge for the device being implanted and
its usual charge for the device for which it received credit (chapter 4, section 61.3.2 of the
Manual).

For services furnished on or after January 1, 2008, CMS requires the provider to report the
modifier “FC” on a claim that includes a procedure code for the insertion of a replacement
device if the provider receives a credit from the manufacturer of 50 percent or more of the cost of
the replacement device. Partial credits for less than 50 percent of the cost of a replacement
device need not be reported with any modifier.


                                                   6
Inpatient Coding Requirements

Federal regulations (42 CFR § 412.89) require reductions in the IPPS payments for the
replacement of an implanted device if (1) the device is replaced without cost to the provider, (2)
the provider receives full credit for the cost of a device, or (3) the provider receives a credit equal
to 50 percent or more of the cost of the device.
CMS guidance in Transmittal 1509, dated May 16, 2008, explains how a provider should report
no-cost and reduced-cost devices under the IPPS. For services furnished on or after October 1,
2008, CMS requires providers to bill the amount of the credit in the amount section for value
code “FD” when the provider receives a credit for a replaced device that is 50 percent or greater
than the cost of the device. Partial credits for less than 50 percent of the cost of the device need
not be reported with the “FD” value code. In addition, CMS Transmittal 741, dated November 4,
2005, and effective April 1, 2006, requires the use of two condition codes to track devices
provided without cost to providers. Condition code 49 refers to the replacement of a device
which is not functioning properly, and condition code 50 refers to devices subject to recalls.
NGS prepayment edits require the presence of both value and condition codes for inpatient
claims involving a medical device replacement.


NONCOMPLIANCE WITH MEDICARE REQUIREMENTS

Clinic Did Not Obtain Available Credits

For five outpatient claims and one inpatient claim, the Clinic did not obtain credits for replaced
devices that were available under the terms of the manufacturers’ warranties. For example,
according to the Clinic’s records for one claim, the defibrillator lead was subject to recall. The
lead was replaced and the Clinic was due a credit from the manufacturer. The Clinic should have
obtained the credit, used the “FD” value code and appropriate condition code on its claim, and
received a reduced payment.

Overpayments of $75,161 for the five outpatient claims and $20,000 for the one inpatient claim
occurred because the Clinic did not follow established procedures to obtain credits available
under the terms of manufacturers’ warranties.


Clinic Did Not Report Credits It Received

For 18 claims the Clinic received either full or partial credits for a replaced device, but did not
report the appropriate billing codes and charges to reflect the credits it received. Specifically, for
nine outpatient claims, the Clinic received full or partial credits from manufacturers, but did not
report the required “FB” or “FC” modifier and reduced charges on its claims. Similarly, for nine
inpatient claims, the Clinic received full credits, but did not report the “FD” value code and
appropriate condition code on its claims. For one of the 18 claims, according to the beneficiary’s
medical records, the replaced device needed to be removed because the battery was depleted.
Under the terms of the warranty, the manufacturer provided full credit for the cost of the


                                                  7
replaced device. Therefore, this claim should have been submitted with the appropriate billing
codes and charges to alert NGS that a payment reduction was needed.

Overpayments of $109,407 for the nine outpatient claims and $49,025 for the nine inpatient
claims occurred because the Clinic did not have controls for reporting medical device credits
received from manufacturers. Specifically, the Clinic did not have procedures for coordinating
functions among the various departments (i.e., clinical, materials management, health
information management, patient accounting, and accounts payable) to ensure that it submitted
claims with the appropriate modifier and reduced charges to initiate reduced payments for credits
received from manufacturers.

MEDICARE OVERPAYMENTS

Medicare overpaid the Clinic $253,593 ($184,568 outpatient and $69,025 inpatient) for 24
claims for which available medical device credits were either not obtained or obtained but not
properly reported. In addition, the overpayments on these claims caused the beneficiaries to
incur $5,615 in additional copayment costs.

RECOMMENDATIONS

We recommend that the Clinic:

   •   adjust the 24 erroneous claims and resubmit them to NGS to correct the overpayments
       totaling $253,593 and overstated copayment costs totaling $5,615,

   •   strengthen its procedures for identifying and obtaining the credits available from
       manufacturers, and

   •   establish procedures in accordance with Medicare requirements for reporting to NGS the
       credits for replaced devices that the Clinic is entitled to, regardless of whether it received
       the credits.

CLEVELAND CLINIC COMMENTS

In its comments on our draft report, the Clinic disagreed with the amount of eleven
overpayments in our first recommendation. The Clinic stated that the credit for three claims was
not reportable, because the amount of credit received from the manufacturer was less than 50
percent. For one claim, it was only entitled to a partial credit but the OIG calculated a full credit.
The Clinic believes that CMS’ methodology for calculating the outlier payments for four claims
should allow underpayments to be netted against the credit. It also noted that three claims
involved the insertion of two devices, but because Medicare policy allows only one credit, the
Clinic was actually underpaid on the claims.

The Clinic agreed with our second and third recommendations and has implemented new
procedures for processing credits from device manufacturers.




                                                  8
OFFICE OF INSPECTOR GENERAL RESPONSE

After reviewing the Clinic’s comments, we adjusted the findings in our report by removing three
claims where the Clinic received less than a 50 percent credit and by reducing the credit amount
on one claim.

The Clinic’s opinions regarding revising CMS’ methodology for calculating outlier payments
relative to four claims and Medicare’s policy of allowing only one credit when two devices are
inserted relative to three claims, is beyond the scope of our review. We calculated the Medicare
overpayment on these seven claims in accordance with current Medicare policies and
procedures.




                                                9
APPENDIXES
APPENDIX A: CORRESPONDING AMBULATORY PAYMENT CLASSIFICATIONS 

                 AND DIAGNOSIS RELATED GROUPS




             Outpatient Ambulatory Payment Classifications (APCs)

 APC                                   APC Description
 0089   Insertion/Replacement of Permanent Pacemaker and Electrodes
 0090   Insertion/Replacement of Pacemaker Pulse Generator
 0106   Insertion/Replacement of Pacemaker Leads and/or Electrodes
 0107   Insertion of Cardioverter-Defibrillator
 0108   Insertion/Replacement/Repair of Cardioverter-Defibrillator Leads
 0654   Insertion/Replacement of a Permanent Dual Chamber Pacemaker
 0655   Insertion/Replacement/Conversion of a Permanent Dual Chamber Pacemaker

                   Inpatient Diagnosis Related Groups (DRGs)

 DRG                                   DRG Description
 222    Cardiac Defibrillator Implant with Cardiac Catheterization with Acute
        Myocardial Infarction/Heart Failure/Shock with Major
        Complication/Comorbidity (MCC)
 223    Cardiac Defibrillator Implant with Cardiac Catheterization with Acute
        Myocardial Infarction/Heart Failure/Shock without MCC
 224    Cardiac Defibrillator Implant with Cardiac Catheterization without Acute
        Myocardial Infarction/Heart Failure/Shock with MCC
 225    Cardiac Defibrillator Implant with Cardiac Catheterization without Acute
        Myocardial Infarction/Heart Failure/Shock without MCC
 226    Cardiac Defibrillator Implant without Cardiac Catheterization with MCC
 227    Cardiac Defibrillator Implant without Cardiac Catheterization without MCC
 242    Permanent Cardiac Pacemaker Implant with MCC
 243    Permanent Cardiac Pacemaker Implant with Complication/Comorbidity (CC)
 244    Permanent Cardiac Pacemaker Implant without CC/MCC
 258    Cardiac Pacemaker Device Replacement with MCC
 259    Cardiac Pacemaker Device Replacement without MCC
 260    Cardiac Pacemaker Revision Except Device Replacement with MCC
 261    Cardiac Pacemaker Revision Except Device Replacement with CC
 262    Cardiac Pacemaker Revision Except Device Replacement without CC/MCC
                                                                                               Page 1 of3

          APPENDIX B: CLEVELAND CLINIC COMMENTS 





[ ] Cleveland Clinic 	                                               Donald A. Sinko, CPA
                                                                     Chief Integrity Officer



August 12, 2011

James M. Barton
Acting Regional Inspector General for Audit Services
Office of Inspector General
Office of Audit Services, Region V
233 North Michigan Avenue
Suite 1360
Chicago, IL 60601

       Re: 	 Response to Draft Report
             Report Number A-05-11-00012

Dear Mr. Barton:
                                                                 n
I am responding on behalf of The Cleveland Clinic ("CC ) to the draft report entitled
aRe view of Cleveland Clinic's Claims for Procedures that Included the Replacement of
Medical Devices During 2008 and 2009," sent with your letter dated July 18, 2011.
During the time of the OIG audit, CC conducted its own retrospective review of al(
Medicare claims for cardiac explant devices from 2008 through 2010 in order to
determine if CC received any cardiac device warranty credits in addition to the credits
identified in the OIG sample audit. All claim amounts identified by CC to be refunded
were rebilled prior to the completion of the OIG audit. Improvements to the warranty
credit process were also implemented at that time. The draft report notes that the credits
identified by CC are included in the OIG's report. We appreciate this opportunity to
review the OIG's draft findings on all credits and to include our responses for the final
report.

The OIG has asked for CC's response on three recommendations:

Recommendation #1: Adjust the 27 erroneous claims and resubmit them to NGS to
correct the overpayments totaling $313,886 and overstated copayment costs totaling
$7,977.

Response: This recommendation focuses on findings for 10 inpatient and 17 outpatient
claims out of a total of 1,641 claims filed during the audit period. While the OIG has
reported a total overpayment on 27 claims totaling $313,886, as explained in more detail
below, CC's audit has determined that there is a difference on only 24 claims totaling
$246,878.

CC concurs with the OIG with reg ard to its findings on the 10 inpatient claims. CC has
taken the necessary steps to readjudicate these inpatient claims through NGS, resulting
in a refund to Medicare of approximately $69,025.

    The Cleveland Clinic Foundation                                  Tel 216444-6,85
    Offices oflntcrnal Audit          9500 Euclid Avenue I H1B       Fax 216444-9807
    and Corporate Compliance          Cleveland,Ohi044 1 95          sinkod@ccf.org
                                                                                           Page 2 of3




Of the 17 outpatient claims, there are 3 claims (Sample #4, 18 and 27) for which CC does
not concur that any overpayment is owed to Medicare. The credit that CC received from
the manufacturer on these 3 claims was less than 50% of the cost of the device.
Therefore, there are no amounts due to be refunded to Medicare related to these claims,
thus reducing the reported overpayment by $52,587.

In addition, there are 4 claims (Sample #39, OM 1, OM 2 and OM 8), for which CC does
not concur with the amount of the identified overpayment. While CC did receive a credit
from the device manufacturer on each of these 4 claims, CC was actually underpaid on
the original claims based on CMS' methodology for calculating outlier payments. The
device credit on these 4 claims should be netted against the amount of the
underpayments still owed to CC under the outlier methodology, thus reducing the
reported overpayment by $5,582.

In addition, on 1 claim (Sample #21), CC received a partial credit on the device, not a full
credit as recommended by the OIG. Recalculating the refund based on the partial credit
reduces the reported overpayment by $8,819.

Finally, for 3 claims (Sample #31,40 and OM 8), the medical procedures that were
performed involved the implantation of two medical devices, only one of which was
eligible for a credit. Medicare requires that the FC or FB modifier be placed on the entire
procedure, which results in the hospital being underpaid for services rendered.

CC has taken the necessary steps to correctly readjudicate all pertinent outpatient claims
through NGS, resulting in a refund to Medicare of approximately $177,853.

Recommendation #2: Strengthen procedures for identifying and obtaining the credits
available from manufacturers.

Response: CC implemented important process improvements to strengthen its existing
procedures for identification and receipt of manufacturer credits on cardiac devices.
First, for cardiac devices that may be entitled to a warranty credit, CC is not aware of the
amount of the warranty credit, if any, that will be issued by the manufacturer at the time of
the explant procedure. Instead, CCF submits a request to the manufacturer related to the
potential warranty claim at the same time a claim is submitted to Medicare for
reimbursement of the full amount for the procedure. Manufacturers may take a
significant amount of time to determine credit amounts. In addition, because warranty
credits are subsequently deducted on future invoices well after the explant procedure has
occurred, a tracking process is necessary not only to ensure that proper credits are
received from manufacturers, but also that subsequent claim adjustments are made to
Medicare in accordance with the regulations.

CCF's new process requires the Heart and Vascular Institute to document and track at
the outset that an explant is being evaluated by the manufacturer for credit, and a
warranty credit may be received. The physician of record and vendor representative will
identify devices qualifying for potential credit. The CC billing department will routinely
compare a list of actual credits received with the Institute's list of potential outstanding
credits, and create a variance report that is then provided to the Institute. If a
manufacturer denies a credit request, appeals will be taken as appropriate. When the

                                              2
                                                                                              Page 3 of3




manufacturer renders a positive determination on a warranty claim, and the amount is
50% or greater of the device cost, the amount granted will be utilized to adjust and rebill
the claim to Medicare at that time.

Recommendation #3: Establish procedures in accordance with Medicare requirements
for reporting to NGS the credits for replaced devices that the Clinic is entitled to,
regardless of whether it received the credits.

Response: Federal law allows CMS to reduce the amount of payment for both inpatient
and outpatient claims for an implanted device when a significant portion of the payment is
attributable to the cost of the device and:

       1. 	 The service is replaced without cost; or
       2. 	 The provider receives full credit or credit that is greater than 50% of the new
            device.

42 C.F.R. 419.45; 42 C.F.R. 412.89

The reduction in payment is permitted when the provider actually receives the 

appropriate credit. While CC concurs that procedures must be in place to pursue and 

report all appropriate credits, CC does not concur that an obligation exists to report 

potential credits, regardless of whether the credit is ever received. 


As noted above, CC's new process requires the Heart and Vascular Institute to document
and track at the outset that an explant is being evaluated by the manufacturer for credit,
and a warranty credit may be received. The physician of record and vendor
representative will identify devices qualifying for a potential credit. The CC billing
department will routinely compare a list of actual credits received with the Institute's list of
potential outstanding credits, and create a variance report that is provided to the Institute.
The credits will be actively pursued and when the manufacturer renders a favorable
determination on a warranty claim that is 50% or greater than the cost of the new device,
the amount granted will be utilized to adjust and rebill the claim to Medicare at that time.
If a manufacturer denies a credit request, appeals will be taken as appropriate.

Thank you for your consideration and the opportunity to respond to these concerns.
Please do not hesitate to contact me if you have any additional questions regarding CC's
response.

Very truly you rs ,


)D~~~-
Donald A. Sinko 

Chief Integrity Officer 





                                               3
